USAID
OFFICE OF INSPECTOR GENERAL
                Audit of USAID/Ukraine’s
                      Activity Monitoring
                                  System


               Audit Report No. B-121-01-006-P

                                  June 28, 2001
                           Budapest, Hungary




                                   U.S. Agency for
                        International Development
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT

RIG/Budapest


June 28, 2001


MEMORANDUM

FOR:              USAID/Ukraine Director, Christopher D. Crowley

FROM:             Dir. of Audit Operations, RIG/Budapest, Nathan S. Lokos

SUBJECT:          Audit of USAID/Ukraine’s Activity Monitoring System
                  (Report No. B-121-01-006-P)


This memorandum is our report on the subject audit. In finalizing the report,
we considered your comments on the draft report. Your comments on the
draft report are included in Appendix II.

This report contains seven recommendations for your action. Based on the
information provided by the Mission, we determined that the Mission
reached a management decision and took final action on each of the seven
recommendations. Accordingly, no further action is required by the Mission
on these recommendations.

We appreciate the cooperation and assistance provided to the auditors on this
assignment.




                                                                       Page 1
Summary of   USAID/Ukraine needs to strengthen certain elements of their activity
Results      monitoring system. Our findings indicate that the performance monitoring
             plan needs improvement (page 4), progress reporting for one program
             reviewed was not adequate (page 7), the work plan approval process needs
             improvement (page 8), the performance monitoring plan omitted a
             significant activity (page 11), and a system to evaluate contractor
             performance needs to be implemented (page 11).




Background   The euphoria that greeted independent Ukraine in 1991 has subsided. As
             noted in USAID strategy documents, the G71 countries anticipated a quick
             and thorough destruction of Ukraine’s Soviet past, but those expectations
             were overly ambitious and greatly exceeded what could realistically be
             done. Throughout the 1990s, Ukraine, with the support of the donor
             community, has accomplished much and its transformation to a
             democratic state may well be irreversible. However, the current economic
             and social situation could threaten to overturn progress made in its
             transition. Despite some progress in economic reform, most observers
             agree Ukraine has not made the tough, but necessary policy reforms done
             more successfully by its Central European neighbors (e.g., Poland, the
             Czech Republic, and Hungary). The transformation process will take
             much longer than anticipated and U.S. assistance will continue to play an
             important role into the next century.

             The United States is the largest bilateral donor to Ukraine. Other major
             donors, as mentioned in the FY 2000 Congressional Presentation, include
             the World Bank, European Union, United Kingdom, Germany, Canada
             and the European Bank for Reconstruction and Development. USAID
             works closely with these donors to ensure that U.S. assistance programs
             are complementary, mutually reinforcing and do not duplicate each other.
             General donor meetings are held regularly, and seventeen sector-specific
             working groups meet periodically to exchange views and information on
             joint activities and key developments.

             Since 1992, USAID/Ukraine has committed $329 million to support its
             assistance program. USAID has noted that its principal mission in
             Ukraine has been to help the country make the transition to a broad-based
             democracy with a market economy while supporting efforts of the

             1
                 Consisted of the United States, Japan, Germany, Britain, France, Canada and Italy.


                                                                                                 Page 2
                  Government of Ukraine to alleviate the privations imposed on the most
                  vulnerable members of society during that economic transition.

                  USAID's program in Ukraine has three strategic objectives:
                  •      To help create a broad-based market economy;

                  •      To help build the framework and practices of a democratic political
                         system that assures open economic and political participation; and
                  •      To help make social services work for the people during and after
                         the country's economic and political transition.

                  This audit examined the activity monitoring system of USAID/Ukraine,
                  focusing on activities conducted during fiscal year 2000.



Audit Objective   In accordance with its Fiscal Year 2001 audit plan, the Office of the
                  Regional Inspector General/Budapest performed this audit to review the
                  Mission’s activity monitoring system and, specifically, to answer the
                  following audit objective:

                  h      Did USAID/Ukraine have an activity monitoring system in place to
                         ensure proper management oversight of USAID-funded activities?

                  Appendix I describes the scope and methodology for the audit.




 Audit Findings   Did USAID/Ukraine have an activity monitoring system in place to
                  ensure proper management oversight of USAID-funded activities?

                  USAID/Ukraine generally had an activity monitoring system that ensured
                  proper management oversight of USAID-funded activities. However, we
                  did note certain elements of the activity monitoring system that could be
                  strengthened. Specifically, the Mission’s performance monitoring plan
                  needs improvement, progress reporting was not adequate, the work plan
                  approval process needs improvement, the performance monitoring plan
                  omitted a significant activity, and a system to evaluate contractor
                  performance needs to be implemented.

                  USAID/Ukraine can monitor its activities using various methods such as an
                  annual Results Review and Resource Request (R4) report that highlights
                  program accomplishments and future strategic directions, a performance




                                                                                      Page 3
monitoring plan that contains a variety of performance indicators, and a
system to evaluate contractor performance.

In addition to examining monitoring on a Mission-wide level, we also
reviewed monitoring performed of eleven individual programs in sub
Strategic Objective 1.3c dealing with business development. USAID
personnel overseeing these programs may use such means as award
recipient work plans, progress reports and site visits to monitor activities
at this level.

In accordance with USAID guidance and prudent managerial practices,
USAID/Ukraine had generally established the basic management controls
necessary to monitor its activities. For instance, USAID/Ukraine had
prepared annual results review and resource request (R4) reports, Strategic
Plans, ongoing results frameworks and performance monitoring plans, six
month activity reports, and evaluation schedules. These plans, documents
and reports covered the 13 strategic objectives, 127 intermediate results,
and 199 performance indicators that covered the Mission’s program in
October 2000. We found that Mission personnel were knowledgeable
about their areas of responsibility and that they monitored their activities
using a variety of tools including award agreements, work plans, progress
reports, site visits, and periodic communication with USAID
implementing partners.

In addition to the above, USAID’s Office of Policy and Program
Coordination conducted a training workshop for USAID/Ukraine staff in
February 2001. The workshop was a guide to the revised policies on
managing for results contained in USAID’s Automated Directives System,
Series 200 (ADS 200) as of September 2000. By becoming familiar with
the revised guidance for planning results, achieving results, and
assessing/learning from results, Mission staff should be better able to
effectively manage their activities in accordance with current USAID
policies.

Although the Mission is implementing many elements of an effective
activity monitoring system, we found that certain areas need
strengthening. Those areas are noted below:


Performance Monitoring Plan Needs Improvement

USAID’s ADS policies set certain requirements for performance
monitoring plans (PMP). However, the Mission’s most recent PMP did
not fully meet those requirements. For instance, not all indicator
definitions were sufficiently detailed, not all possible sources were
included, the method and schedule of collection for required data was


                                                                      Page 4
missing and the responsibility for data collection was not assigned. This
lack of compliance occurred because Mission personnel were not
sufficiently familiar with ADS requirements. Without a PMP containing
all the required elements, the effectiveness of the monitoring system is
jeopardized.

According to ADS E203.5.5.b, performance monitoring plans (PMPs)
shall provide a detailed definition of the performance indicators that will
be tracked; specify the source, method of collection and schedule of
collection for all required data; and assign responsibility for collection to a
specific office, team or individual.          In addition, the Center for
Development Information and Evaluation’s (CDIE) TIP No. 7 on
Performance Monitoring and Evaluation states that “PMPs promote the
collection of comparable data by sufficiently documenting indicator
definitions, sources, and methods of data collection. This enables
operating units to collect comparable data over time even when key
personnel change.”

At the time of audit, the Mission’s most recent PMP (dated October 19,
2000) did not fully meet the above ADS requirements. For example, not
all indicator definitions were sufficiently detailed, not all possible sources
were included, the method and schedule of collection for required data
was missing and the responsibility for data collection was not assigned.

Detailed indicator definitions are extremely important in ensuring that data
is collected and reported in a consistent manner. During the audit we
found that this consistency in reporting was not always taking place. For
example, the data collected and reported on micro loan activity under the
Mission’s grant agreement with the European Bank for Reconstruction
and Development (EBRD) was not consistent. This problem arose
because the definition of which micro loans should be counted under the
Mission’s activities was not adequate.

The Mission’s May 2000 R4 contained an intermediate result (IR) of
“Improved access to finance” (IR 1.3c.3). To show progress toward that
result, the Mission expected to see “Increased loan activity to SMEs”
(small and medium sized enterprises) as measured by both the number of
loans and the dollar amount loaned. From these definitions, we believe,
and the Mission now concurs, that all loans should be counted. However,
while the Mission’s R4 reported the number of micro and small loans
made by the banks using EBRD funds as well as some of the bank’s own
funds, it omitted micro and small loans disbursed with German funds.2

2
  USAID provides funds for technical assistance to increase the loan making capability of
lending officers, regardless of source. The decision to not include loans issued with
German funds was reportedly made by USAID management, but was not documented.



                                                                                  Page 5
In contrast, the Mission’s reporting to USAID’s Global Bureau included
all loans issued by the program, regardless of whether the funding source
was EBRD funds, local bank funds or German funds. Thus, the lack of
clear indicator definitions resulted in the Mission inconsistently reporting
on its micro lending activities.

Another problem noted with IR 1.3c.3 in the Mission’s PMP was that the
listed sources for data on micro and small loans was not complete. The
sources listed were EBRD, Western NIS Enterprise Fund and Eurasia
Foundation. However, despite the fact that Counterpart Meta Center, a
USAID-funded business incubator, concentrated a great deal of its efforts
in the disbursement of micro and small loans, those loans were never
counted under IR 1.3c.3. Since IR 1.3c.3 states that USAID is
concentrating its efforts on “Improved access to finance” and specifically
on “Increased loan activity to SMEs”, the micro and small loans should be
counted and reported, and the implementing entities for these loans should
be listed as sources in the PMP.

As noted in our discussions with USAID officials, the Mission’s PMP did
not fully comply with the ADS requirements because activity management
staff were not aware of those requirements. Moreover, the Mission’s
program office—which was responsible for putting the PMP together—
was not familiar enough with those requirements to identify the
deficiency.

The PMP is a critical tool for planning, managing and documenting the
data collection process. It contributes to the effectiveness of the
performance monitoring system by assuring that comparable data will be
collected on a regular and timely basis. Such information is essential to
the operation of a credible and effective performance-based management
system. Without it, the effectiveness of the monitoring system is
jeopardized.

       Recommendation No. 1: We recommend that USAID/Ukraine
       revise its Performance Monitoring Plan to include detailed
       indicator definitions, data sources, the method and schedule of
       data collection, and the assignment of responsibility for data
       collection, as required by the Automated Directives System.




                                                                      Page 6
Progress Reporting For One Program Reviewed Not Adequate

ADS policies lay out certain requirements for the collection and
assessment of data used to monitor progress. However, for one micro
lending program reviewed, USAID did not know how many loans up to
$10,000 had been issued even though that was the intended emphasis of
the program. In addition, specific goals and targets for the micro lending
activities had not been established. Although we were unable to determine
why these oversights occurred, we believe that they could hinder USAID
in properly monitoring ongoing activities or in determining the
effectiveness of its assistance.

According to ADS 203.5.5, USAID’s operating units shall establish and
maintain performance monitoring systems that regularly collect data
which enable the assessment of progress towards achieving results. In
addition, ADS 203.5.5e states that operating units shall, at regular
intervals, critically assess the data they are using to monitor performance
to ensure they are of reasonable quality and accurately reflect the process
or phenomenon they are being used to measure.

We noted that progress reporting for the micro lending program, one of
eleven programs reviewed, being implemented under USAID/Ukraine’s
grant agreement with the European Bank for Reconstruction and
Development (EBRD) does not reflect and report on the activities
specifically required in the grant agreement terms. The grant agreement
states that USAID will provide funds for technical assistance for “basic
micro loans” to microenterprises made under the program. In addition the
grant agreement states that “USAID funding will be available only
(bolding added) in support of the basic micro loan” and that these loans
will be valued from $30 to $10,000. Obviously, the Mission intended that
its efforts would be concentrated on loans up to $10,000 and, accordingly,
would expect progress reporting on these loans.

However, instead of presenting information for basic micro loans up to
$10,000; the progress reports combined basic micro loans of up to $10,000
with other micro loans up to $20,000 and, on an exceptional basis, up to
$30,000. Although the progress reports identified the number of micro
loans issued by the different banks and regions, the value of the individual
loans were only shown in averages, which does not allow for the
determination of whether or not the loans qualified as basic micro loans.

As a result, although the micro lending program has been ongoing since
September 1998, USAID/Ukraine does not know how many basic micro
loans up to $10,000 have been issued under the program—even though
that was the intended emphasis of the program. The recipient’s current
reporting system does not allow for a break out of the number of micro


                                                                      Page 7
loans. This situation arose because 1) the Mission did not specify that
progress reporting must reflect the amounts of basic micro loans and 2)
Mission staff did not make a critical assessment of the reported data to
ensure that it was relevant to the program.

In addition to the above, the grant agreement did not establish specific
goals to measure the effectiveness of the micro lending activities nor were
periodic targets established for micro loans. The presence of targets is an
important element in determining the progress of an activity—a fact
emphasized by Section 226.51 of the U.S. Code of Federal Regulations,
which states that performance reports shall generally contain a comparison
of actual accomplishments with the goals and objectives established for
the period.

While we were unable to determine why micro loan goals and targets had
not been developed, in their absence, USAID was unable to make a
comparison of actual to planned lending levels. Without such goals and
targets concentrating on basic micro loans up to $10,000, USAID is not in
a position to properly monitor ongoing activities or determine the
effectiveness of its assistance.

Although the micro lending activity is scheduled to end on April 30, 2001,
we believe it is still appropriate to collect data on basic micro loans that
have been disbursed during the life of the project activities. This
information will assist in determining the overall effectiveness of the
program in achieving what USAID intended.

       Recommendation No. 2: We recommend that USAID/Ukraine
       obtain data on micro loans disbursed under the European
       Bank for Reconstruction and Development activity with values
       up to $10,000.

       Recommendation No. 3: We recommend that USAID/Ukraine
       establish targets for planned lending activities and that actual
       lending activities are compared against these targets.


Work Plan Approval Process Needs Improvement

USAID grants and cooperative agreements require periodic work plans
that are approved by USAID. Of the work plans we reviewed, all of the
work plans needed improvements in certain areas. In addition, we noted a
need for better documentation in the activity monitoring process. These
problems occurred due to inattention to award requirements and a lack of
appreciation for documenting essential actions. Without proper approval
of workplans, the activities may not lead to the expected results.


                                                                      Page 8
USAID contracts and cooperative agreements contain provisions requiring
that contractors and grantees submit periodic work plans and that those
work plans be approved by USAID. In addition, the Standards for Internal
Control in the Federal Government3 states, among other things, that
internal controls, transactions and other significant events need to be
clearly documented.

During the audit, we reviewed eight work plan requirements from the
eight active contracts and cooperative agreements in the Business
Development Division of the Mission’s Office of Private Sector
Development. We determined that the work plan approval process needed
improvement in certain areas for all of the awards reviewed. Some of the
problems with these required work plans included:

    •   Two of the plans were not prepared but there were indications of
        verbal agreement to certain planned actions.
    •   Three of the plans were prepared but lacked written USAID approval.
        One of the plans received periodic oral agreement.
    •   Three of the plans received written approval but only after the
        beginning of the time period covered by the plan. Subsequent
        changes did not have written approval.

Although we determined that activity monitoring was occurring within
this Mission office, some of this monitoring was being conducted without
documentary support. For example, activity managers frequently used
telephone and e-mails to maintain contact with implementing entities but
did not always document essential actions. Also, field site-visits were
made, but there were no formal site-visit reports prepared to document
what was observed and discussed. Moreover, numerous meetings took
place on a regular basis, but without minutes being prepared to document
the discussions and any agreements that may have been reached.

USAID’s approval of changes to planned activities could have taken place
in any of the above venues. Thus, documenting these events would
strengthen the overall monitoring process and provide support for
USAID’s approval of contractor and grantee actions. This written
approval could prove especially important in the case of work plan
changes or if a dispute arose.

In two of the instances noted earlier in this section, according to a
cooperative agreement recipient and a contractor, USAID’s approval of
planned activities was done orally. For example, in one instance, a

3
    Issued by the U.S. General Accounting Office in November 1999.



                                                                     Page 9
grantee stated “We held frequent discussions with our various USAID
COTRs4 in Kyiv about our plans and got an oral go-ahead for each
request.” This same grantee did not prepare the required annual plan that
was noted in the cooperative agreement terms; however, in responding to
auditor requests for these annual plans, the grantee stated “in retrospect an
annual summary of planning would have been useful for us as well as
USAID."

In another instance, a contractor was not required to prepare an annual
work plan. However, the contract did require that the contractor meet at
least monthly with USAID officials to review progress and to
complete/approve a short-term work plan for the coming month. Also, in
order to allow for more flexibility, the contract stated that, if approved by
the COTR, those short-term work plans could cover different periods of
time. USAID officials and contractor staff both stated that the monthly
plans were approved orally and not in writing.

These deficiencies are the result of a lack of attention to award
requirements and a general lack of understanding and appreciation for the
need to document basic essential actions.

Without having approved work plans—or approved changes to work
plans—USAID/Ukraine has no assurance that the activities being
implemented will lead to the expected results. Moreover, since approved
work plans establish the benchmarks against which contractor and grantee
performance can be measured, the absence of such benchmarks can make
assessing performance more difficult.

           Recommendation No. 4: We recommend that USAID/Ukraine
           notify Mission personnel that 1) all activity work plans shall be
           approved in writing and 2) significant changes to work plans
           shall be approved in writing, in accordance with the award
           documents.

           Recommendation No. 5: We recommend that USAID/Ukraine
           issue a memorandum reminding Mission staff that significant
           events (e.g. field site visits, important conversations, etc) and
           decisions should be documented in writing and maintained in
           official files.




4
    Contracting Officer’s Technical Representative (COTR)




                                                                      Page 10
Performance Monitoring Plan Omitted A Significant Activity

ADS policies lay out certain requirements for the collection and
assessment of data used to monitor progress. However, we found that a
significant activity is not included in the Mission’s PMP. Due to the
activity’s unique cross cutting nature, indicators were not originally
established. The omission from the PMP may hinder the Mission’s
assessment of progress towards its results.

ADS 203.5.5 addresses performance monitoring and states that :

“The Agency and its operating units shall establish and maintain
performance monitoring systems that regularly collect data which enable
the assessment of progress towards achieving results. Operating unit
performance monitoring systems shall track performance at both the
results framework level and the activity level.”

Despite this requirement, we found that one of the eleven programs
reviewed—the Ukraine Market Reform Education Program (UMREP)—is
not included in the Mission’s Performance Monitoring Plan. The PMP
contains no indicators for this significant activity ($8.2 million contract)
and, although UMREP is a cross cutting activity that contributes to several
strategic objectives, it is not included as a source for information under
those strategic objectives.        The omission of this activity from
USAID/Ukraine’s performance monitoring plan hinders the Mission’s
assessment of progress towards its results.

When queried, USAID and UMREP officials stated they had not
originally provided indicators for this activity due to its cross cutting
nature. However, they agreed with our assessment and believe that
indicators should be developed. As a result, Mission and UMREP
officials are now working to develop a number of indicators covering this
activity.

       Recommendation No. 6: We recommend that USAID/Ukraine
       review all significant activities for inclusion in the Performance
       Monitoring Plan.


System to Evaluate         Contractor     Performance      Needs    to   be
Implemented

The ADS requires a system to evaluate contractor performance. However,
the Mission’s Regional Contracts Office has not implemented such a
system due to a lack of personnel in previous years. The absence of the



                                                                     Page 11
Mission’s required evaluation reports may prevent the most qualified
contractor from being chosen for an award.

According to ADS 302 covering the evaluation of contractor performance,

“It is USAID policy that contracts in excess of $100,000, including
individual task orders under indefinite quantity contracts, must be
evaluated at least annually (for contracts exceeding one year in duration)
and on completion of activities, as required by Federal Acquisition
Regulation 42.15025...”

The ADS further notes that more frequent evaluations may be conducted if
the Contracting Officer (CO) and Cognizant Technical Officer (CTO)
determine them to be in the best interests of the activity. In addition, the
National Institutes of Health (NIH) Contractor Performance System (CPS)
must be used to compile and record these reports, if the Contracting
Officer has been given access to it by USAID’s “Past Performance
Coordinator”.

To begin the evaluation process, the cognizant Contracting Officer (CO)
identifies the contracts and task orders that are due for either interim or
final performance evaluations. For each award, the CO completes the
identification information in the appropriate form (depending on whether
the CO has access to the CPS). The CO then sends the form to the CTO
for the initial assessment. The CTO will return the form to the CO, who
may revise the form as appropriate. The Contractor is then given 30 days
to respond to the evaluation. After the thirty-day period, the information
resulting from the evaluation is entered into the CPS.

The USAID/Ukraine Regional Contracts Office (RCO) has performed
only one evaluation of contractor performance in the past three years.
Although we did not determine a specific number of contracts and task
orders that could have been subject to this requirement over the past three
years, we did note that there were 54 active contracts and task orders that
could have been subject to this requirement in FY 2000. Currently, there
are 12 contracts and task orders over the $100,000 threshold which require
annual or final contractor performance reports during the first six months
of calendar year 2001. The Contracts Office does not maintain a schedule
of when to perform the evaluations. Although one member of the
Contracts Office staff has the necessary logon and password to access the
CPS database, he has never accessed the system. According to RCO staff,
a lack of personnel in previous years prevented implementation of the
contractor evaluation system.

5
 According to FAR 42.1502, the threshold was lowered from $1million to $100,000
effective as of January 1, 1998.



                                                                            Page 12
                 Seventeen civilian agencies have subscribed to the NIH system, leaving
                 the U.S. Department of Housing and Urban Development (HUD) and the
                 National Aeronautics and Space Administration (NASA) as the only major
                 agencies not covered by it. The past performance reports are a tool used to
                 support future award decisions. The absence of USAID/Ukraine’s
                 required evaluation reports may prevent the most qualified contractor from
                 being chosen for an award. The contracting staff intends to address this
                 monitoring weakness by initiating a contractor performance evaluation
                 system at the Regional Contracts Office in USAID/Ukraine during
                 calendar year 2001. The Contracts Office has begun work on a course to
                 train staff in this evaluation system.

                        Recommendation No. 7: We recommend that the
                        USAID/Ukraine Regional Contracts Officer implement a
                        system to evaluate contractor performance in accordance with
                        the requirements set forth in the Federal Acquisition
                        Regulations and Automated Directives System 302.




Management       USAID/Ukraine officials have taken prompt action with regard to the
Comments and     seven recommendations in our report, and their comments (excluding
Our Evaluation   lengthy attachments) are included as Appendix II to this report. Based on
                 USAID/Ukraine’s response, we have determined that final action has been
                 taken on each of the seven recommendations.




                                                                                     Page 13
                                                                              Appendix I
                                                                               Page 1 of 2



Scope and     Scope
Methodology
              The Office of the Regional Inspector General/Budapest conducted an audit,
              in accordance with generally accepted government auditing standards, to
              determine whether USAID/Ukraine had an activity monitoring system in
              place to ensure proper management oversight of USAID-funded activities.

              The audit examined the activity monitoring system of the Mission, focusing
              on activities conducted during fiscal year 2000. There were 124 awards
              totaling $401 million that were on-going in fiscal year 2000. Also, in order
              to focus on certain activity-level components, the audit specifically reviewed
              monitoring performed of eleven individual programs in sub Strategic
              Objective 1.3c (Expanded role of small and medium sized enterprises in the
              national economy). The eleven awards for these programs totaled $50
              million. The audit was conducted at USAID/Ukraine in Kyiv, Ukraine from
              October 2000 through February 2001.


              Methodology

              As mentioned above, the audit objective was to determine whether
              USAID/Ukraine had an activity monitoring system in place to ensure proper
              management oversight of USAID-funded activities.

              In answering the audit objective, we tested various aspects of the Mission’s
              activity monitoring system. For instance, we included tests to determine
              whether Mission personnel: prepared R4 reports, ongoing results
              frameworks and performance monitoring plans that contained certain
              elements required by the ADS (e.g. performance indicators had a detailed
              description and specified the source, method, and schedule for data
              collection as well as the assignment of responsibility); conducted periodic
              portfolio reviews of activities; conducted evaluations of activities; had
              approved work plans and adequate progress reports for awards; conducted
              site visits; communicated with USAID partners, documented significant
              events and were knowledgeable about their assigned areas of responsibility;
              and implemented a system to evaluate contractor performance evaluation.

              We also made our own site visits to implementing partners to verify data
              reported in periodic progress reports. We performed file reviews, interviews
              of officials, and data analysis. In order to review ongoing monitoring at the
              activity level, we selected a judgmental sample of programs in sub Strategic
                                                                Appendix I
                                                                 Page 2 of 2

Objective 1.3c based on the valuation and the significance of these activities
to the overall Mission’s portfolio.

We examined documentation which included Mission staffing and
organization documents; Mission historical funding data; Ukraine country
data; applicable prior USAID and GAO reports; and other documentation
necessary to answer the audit objective. We also considered specific criteria
affecting activity monitoring such as USAID and Bureau R4 guidance
including USAID Center for Development Information and Evaluation
TIPS; USAID Automated Directives Systems, Acquisition Regulations and
Contract Information Bulletins. Other criteria included the Code of Federal
Regulations and Federal Acquisition Regulations.
                                                                 Appendix II
                                                                 Page 1 of 4



Management Comments


                  REGIONAL USAID MISSION FOR
               UKRAINE BELARUS AND MOLDOVA
             ─────────────────────────────────────────────────────────────────
                        19 Nizhny Val St, Kiev 254071, Ukraine
               Fax:+380-44-462 5678/79/80/81; Phone: +380-44-462 5834



                                                        June 28, 2001



  To:        Director of Audit Operations, RIG/Budapest, Nathan Lokos


  From:      Christopher D. Crowley, Director for USAID Mission for
             Ukraine, Belarus and Moldova


  Subject:   Audit of USAID/Ukraine’s Activity Monitoring System



  As requested in your memo dated May 11, 2001, our comments to
  subject audit are in Attachment A (Mission memo dated March 1,
  2001) and below. Based on this memo and the additional actions
  that were recently taken (see below for details), the Mission
  requests that the RIG/Budapest issue management decisions for all
  7 recommendations and close recommendation numbers 1 to 6 upon
  issuance of the final report. Details are as follows.

  Recommendation No. 1:

  In accordance with our comments in our March 1, 2001 memo, the
  Mission continually reviews and revises its indicators, which are
  reflected in the Performance Data Tables for the FY 2003 R4
  report. As reflected in the Missions Memorandum of the FY 2003 R4
  (Attachment B), the Mission notified Washington of indicator
  changes proposed for SOs 2.2, 2.3, 3.2 and 3.4. We have also
  modified the indicators for SO 1.6 (Attachment B) in our
                                                      Appendix II
                                                      Page 2 of 4

Performance Monitoring Plan and it was reflected in the SO 1.6
narrative of the FY 2003 R4 (Attachment B).

In the course of revising our indicators, the Mission has
corrected indicator definitions and data sources. We have also
amended the Performance Monitoring Plan (PMP) to include the
method and schedule of data collection, and the assignment of
responsibility for data collection in accordance with the ADS
(Attachment C). These additional columns in the PMP will be fully
updated by August 31, 2001. Based on these actions, the Mission’s
Performance Monitoring Plan is in accordance with the ADS and we
request that this recommendation be closed upon issuance of the
final report.

Recommendation No. 2:

USAID/Kiev has revised its Performance Monitoring Plan (PMP) to
assure that all sources of micro loans are included in the PMP and
these sources are used to report micro loan data in the yearly R4.
The most recent R4 report included all micro loans under the EBRD
program, including those issued by the German fund, as well as
loans from the Counterpart Meta Center. Furthermore, the Mission
continues to review all data reported to the Global Bureau on
micro loans to assure that the data is consistent with the data
reported in the R4.

Additionally, subsequent to the audit, EBRD is now providing data
to USAID/Kiev on a monthly basis for loans ($10,000 or below)
issued by the entire program, including the German funds
(Attachment D). USAID will ensure that all future USAID-financed
micro loan programs determine targets for micro loans and report
the micro loans issued as a result of those programs in the R4 and
in reports to the Global Bureau. Attachments D and E also
provides documentation on the micro-loan targets established for
the tranche of funds now being processed in the Mission.

It should be noted that the R4 will continue to report data on
other loans to small and medium enterprises that exceed the micro
loan category (over $10,000) since the Mission's programs also
support small and medium enterprise growth. As the audit team
noted, it is also a positive reflection of USAID activities that
larger loans are made available to small and medium enterprises
for enterprise growth and overall private sector development in
Ukraine. This data will be included in next years R4 due to the
fact that we only started collecting this information in FY 01.
                                                      Appendix II
                                                      Page 3 of 4

Based on these actions, we request that recommendation be closed
upon issuance of the final report.

Recommendation No. 3

The Mission established targets in the FY 2003 R4 report for micro
loans (lending activities) and has compared the actual lending
activities against these targets (Attachments D & E). Based on
these actions, the Mission requests that this recommendation be
closed upon issuance of the final report.

Recommendation No. 4:

At the request of the Deputy Director on 25 February 2001, Office
Directors submitted a list of contracts, task orders and
cooperative agreements requiring USAID approval of work plans,
showing the date of written approval of the work plan or the
reason the work plan was not approved. Copies of written
approvals were provided to the Regional Contracts Office. RCO
will follow up with each office on a quarterly basis. In
addition, the RCO issued an e-mail to RCO staff notifying them
that any contract, task order or cooperative agreement requiring
submission of a work plan to USAID should also require CTO
approval of the work plan in writing (see Attachment F). We are
also modifying the procedures for the semi-annual SAR reviews to
require the SOs to report on the status of approved work plans in
writing. Based on these actions, the Mission requests that this
recommendation be closed upon issuance of the final report.

Recommendation No. 5:

The Deputy Mission Director issued a memorandum via e-mail on 15
June 2001 (see Attachment G), advising mission Cognizant Technical
Officers that all important agreements reached with contractors or
recipients should be documented in writing and included in the
project files. Examples of such documents are trip reports, CTO
approval of key personnel or other information relating to
“substantial involvement” under cooperative agreements,
substantive discussions related to performance or implementation,
etc. Based on these actions, the Mission requests that this
recommendation be closed upon issuance of the final report.

Recommendations No. 6
                                                      Appendix II
                                                      Page 4 of 4
USAID has reviewed all significant activities for inclusion in the
Performance Monitoring Plan. The Mission definition for
significant activity is both Mission and USAID/W funded activities

with a total lifetime cost of $500,000 or more and which will
continue beyond the end of the fifth month of the next reporting
period.

USAID/Ukraine is in the final process of taking all appropriate
actions to move UMREP from SO 1.3c to SO 4.2. The March 2001 R4
indicated that UMREP would be moved from SO 1.3c to SO 4.2 as a
cross-cutting new activity in FY 2002. However, notifications
under SO 1.3c for FY 2001 still included UMREP, which is
consistent with previous budget allocation and funding. The
Mission has also developed and approved 3 new indicators for UMREP
(Attachment H).

Other activities in SO 4.2 are either politically mandated or
cross-cutting. The cross-cutting activities within SO 4.2 are
Participant Training and Anti-Trafficking in Women activities.
The politically mandated activities include Eurasia Foundation,
Poland Ukraine American Cooperation Initiative (PAUCI), and the
Ukraine Land Resource Management Center.

In addition, under SO 1.3c, the Mission reviewed 5 other
activities (see below). Of these, Junior Achievement falls below
the $500,000 threshold. This activity may be modified to increase
the total estimated cost to $600,000. If this occurs, it will be
added to the PMP.

Business Education/Consortium for Enhancement of Ukrainian
Management Education (University of Minnesota and others (CEUME))
is listed in the PMP.

Volunteer Activities/Alliance (IESC, ACDI/VOCA, and others) is
politically directed.

National Telephone Cooperative Association (NTCA) and the Center
for Economic Initiatives (CEI) are both congressional earmarks and
are not listed in the PMP because they are difficult to measure
and, in accordance with ADS 201.3.4.6 guidance, do not contribute
directly to the Mission's strategic objectives.

Based on these actions, the Mission requests that this
recommendation be closed upon issuance of the final report.

Recommendation No. 7
                                                      Appendix II
                                                      Page 5 of 4

Mission is committed to the time frame identified in Mission
Response dated 1 March 2001 to have contractor performance reports

for 11 task orders and contracts finalized in the NIH system by 30
July 2001 (see Attachment I for details and explanation of 11 task
orders and contracts instead of 12). Based on these actions, the
Mission requests that a management decision be issued and that
this recommendation be closed on July 30, 2001.

As also requested in your memo, we signed and attached the audit
representation letter for subject audit (Attachment J). The
Mission appreciates all of your assistance in this matter.
